               OFFICE OF
        THE INSPECTOR GENERAL


    SOCIAL SECURITY ADMINISTRATION


         PUERTO RICO DISABILITY
        DETERMINATION PROGRAM
          INDIRECT COST REVIEW


      September 2004   A-06-04-34035




     AUDIT REPORT




.
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                        SOCIAL SECURITY

MEMORANDUM


Date:   September 16, 2004                                                            Refer To:

To:     Beatrice Disman
        Regional Commissioner
         New York

From:   Assistant Inspector General
         for Audit

Subject: Puerto Rico Disability Determination Program Indirect Cost Review (A-06-04-34035)



        OBJECTIVE
        Our objectives were to (1) determine whether indirect costs charged to the Puerto Rico
        Disability Determination Program (PR DDP) for State Fiscal Year (SFY) 2002 were
        allowable and allocable; (2) identify any non-recurring indirect costs from Federal Fiscal
        Year (FY) 2002 that should not be considered in the indirect cost rate negotiations; and
        (3) identify and review the accumulated leave payments for PR DDP retirees.

        BACKGROUND

        The Disability Insurance (DI) program was established in 1954 under Title II of the
        Social Security Act. The program provides a benefit to wage earners and their families
        in the event the wage earner becomes disabled.

        The Social Security Administration (SSA) is primarily responsible for implementing
        policies governing the development of disability claims under the DI program.1 In
        Puerto Rico, SSA uses the PR DDP to develop disability claims. The PR DDP is
        responsible for evaluating claimants’ disabilities and submitting the results to SSA. In
        turn, SSA reimburses the Puerto Rico Department of Family (PR DF) for 100 percent of
        allowable PR DDP expenditures incurred in making disability determinations under the




        1
         Supplemental Security Income is not available to residents of Puerto Rico. Accordingly, PR DDP only
        makes disability determinations for applicants eligible under the DI program.
Page 2 – Beatrice Disman


DI program. The total allowable expenditures are comprised of the allowable direct
costs of the program plus allowable indirect costs based on the negotiated indirect cost
rate.2

PR DDP is a component of the PR DF. PR DF submits its indirect cost proposal to the
cognizant Federal agency, the Department of Health and Human Services, Division of
Cost Allocation, for review and approval. The administrative expenses included in
proposed indirect cost rates consist of (1) Central Service costs allocated as part of the
State-wide cost allocation plan and (2) expenses the PR DF incurred in supporting the
PR DDP. Puerto Rico hired a private contractor to develop the indirect cost proposal.
Because PR DF did not have a cost accounting system, the contractor identified the
total costs expended during the SFY from the PR DF records and assigned salary and
related costs to cost components.3 The contractor assigned salary and related costs
based on prior year information and on discussions with Human Resources Division
personnel who informed him where the individuals worked. Other costs were directly
identified to the cost components.

The cost data used in the SFY 2004 Indirect Cost Proposal were based on actual
administrative costs incurred during SFY 2002 (July 1, 2001 through June 30, 2002).
During SFY 2002, PR DF allocated about $39.2 million in costs to various funding
sources. Of this amount, about $27.3 million was for salaries and related benefits. To
allocate the administrative expenses from each cost component to sponsoring
agencies, the contractor used a step-down allocation method4 and pre-defined
allocation bases, such as number of employees for each component or number of
transactions processed. Appendix B contains the Scope and Methodology of our
review.

RESULTS OF REVIEW

The administrative costs allocated to PR DDP in the SFY 2004 Indirect Cost Proposal
were not reasonable. We found that allocation statistics were inflated, and the direct
cost base was inaccurate. Also, PR DF improperly charged SSA directly for costs

2
 Direct costs can be identified specifically with a particular cost objective (Office of Management and
Budget [OMB] Circular A-87, Cost Principles for State, Local, and Indian Tribal Governments, Attachment
A, Section E.1.). Examples include expenditures for personnel, equipment, and travel. Indirect costs
arise from activities that benefit multiple cost objectives but are not readily assignable to any one cost
objective (OMB Circular A-87, Attachment A, Section F.1.). Examples include the cost of services, such
as accounting, auditing, budgeting, and payroll.
3
  We use the term “cost component” to refer to any department within PR DF that supplied goods,
services, and facilities.
4
 The step-down allocation method, also called the sequential allocation method, allocates costs to cost
components in sequence. Once a component’s costs have been allocated, they are removed from the
allocation order, and the costs of any subsequent component are not allocated back to it. As a result, this
method does not recognize the total services cost components provide each other. Further, different
sequences will result in different allocations of costs to a particular cost component. The Division of Cost
Allocation recommended this method for use by PR DF for its proposed indirect cost rate.
Page 3 – Beatrice Disman

allowable as indirect expenses including (1) costs incurred for employees who elected
early retirement and (2) payments for unused leave balances for employees who
terminated their employment with the PR DDP.

REASONABLENESS OF PROPOSED INDIRECT COSTS

Indirect costs assigned to the PR DDP from SFY 2002 costs were not reasonable
because cost allocation statistics assigned to the PR DDP were inflated, and the total
direct cost base used as the denominator in calculating the proposed rate was
inaccurate.

PR DF’s proposed indirect cost rate for SFY 2004 was calculated as a ratio between the
PR DF’s actual administrative costs allocated to the PR DDP (numerator) and the actual
total direct costs identifiable to the PR DDP (denominator) during SFY 2002.


                                 Indirect Cost Rate
         As Reflected in Puerto Rico’s Indirect Cost Proposal for SFY 2004

       PR DF administrative costs
       allocated to PR DDP                    $1,392,141
                                            ------------------- = Proposed Rate16.38%
       Total PR DDP Direct Costs              $8,500,188

       Amounts included in the Indirect Cost Proposal were based on actual administrative
       costs incurred during SFY 2002 (July 1, 2001 through June 30, 2002).




We limited our review to testing the reasonableness of (1) the $1,392,141 in
administrative costs included in the numerator by evaluating the allocation statistics
used to derive the amount and (2) the $8,500,188 in direct costs included in the
denominator by reviewing amounts included in the total.

Accuracy of the Statistics Used in the Allocation of Costs

Costs were allocated to the PR DDP from 15 cost components. Of the 15 cost
components, 6 comprised 82.52 percent ($1,057,566) of the total administrative costs
allocated ($1,281,565) to the PR DDP. The six cost components consisted of Payment,
Federal Reports, Contract Control, Collection, Pre-audit, and Accounting (see
Appendix C). PR DF increased the total amount of allocated costs with a cost
adjustment ($110,576) to recover non-recurring indirect salaries converted to direct
costs.
Page 4 – Beatrice Disman


We interviewed component directors and staff and reviewed allocation calculations to
assess the reasonableness of the statistics used for these six cost components. Based
on these discussions, we determined the level of support provided by the PR DF to
PR DDP activities was inconsistent with the statistics used for allocating costs in four of
six cost components. For example, the number of checks processed as used for the
Payment cost component was unreasonable because the effort required by the
Payment cost component to process PR DDP checks was distinctly less than that
required to process other checks included in the statistic.

The PR DF allocated costs from the Payment cost component based on a count of
50,035 checks issued for the PR DDP, representing 98.97 percent of the total number
of checks used as the allocation statistic. However, the total check count used for the
PR DDP was inflated. The accounting records (a log maintained by the Payment cost
component) supported a count of about 38,000 checks issued for the PR DDP and
about 14,000 checks issued for other PR DF agencies. Further, the checks issued for
the PR DDP did not require the same effort as checks issued for other agencies.
Specifically, the checks were sent out in batches to be printed while checks for other
agencies were individually printed in the Payment section. The PR DDP checks were
sent out for printing in batch mode 6 times during the year averaging 6,000 checks per
batch. Based on discussions with staff from the Payment cost component, the amount
of work to write individual checks for other agencies was the same as for each batch
of checks.

Other tasks performed by Payment staff, such as bank reconciliation, copying, mailing
and filing, were the same for PR DDP checks and checks of other agencies. However,
in view of the discrepancy with the number of checks included in the allocation statistic
and the level of effort associated with each check, the allocation of 98.97 percent of the
Payment cost component to the PR DDP did not represent a reasonable allocation.

Another example involved the statistics used for allocating administrative costs for the
Contract Control cost component. While PR DF identified 196 contracts for
consideration in the statistic, only 50 contracts were used because of the allocation
methodology, and 33 (66 percent of 50) of these were PR DDP contracts. We were told
that the PR DDP prepared about 25 of the contracts, which were for medical
professional services, and PR DF’s involvement was minimal because the contracts
were forwarded to the Contract Control cost component only once each year. Based on
interviews with personnel in the Contract Control cost component, we estimate the
PR DDP-related workload was an average of 6.36 percent. Furthermore, according to
the Contract Control Director, the bulk of the workload was derived from working over
600 contracts related to Family Services. However, the indirect cost proposal reflected
the use of only 4 percent of the contracts, the equivalent of 2 of the 50 contracts, for
Family Services.

The percentage of costs that was allocated to the PR DDP from the Accounting and
Pre-audit cost components did not reasonably reflect the level of effort expended;
however, for the Collection and Federal Reports cost components, the statistics used
Page 5 – Beatrice Disman


were reasonable. PR DDP received 47.86 percent of costs from Accounting and
48.03 percent from Pre-audit. According to interviews with staff and administration, the
level of effort expended on PR DDP-related activity for these two cost components
averaged 23.30 percent and 25.00 percent, respectively.

The use of inflated statistics raised questions about the reasonableness of the proposed
rate for SFY 2004 for the PR DDP as well as for indirect cost rates negotiated for prior
years; particularly since PR DDP costs were fully funded while costs allocated to other
sponsoring Federal agencies were only partially funded.

Accuracy of Costs Included in the Direct Cost Base

The direct cost base (denominator) consisted of total direct costs incurred less medical
costs (professional services) and equipment purchases over $50 incurred during the
SFY. The direct cost base used in the proposal was $8,500,188. Based on the
supporting documentation, the direct costs for SFY 2002 totaled $9,012,570─$512,382
more than the amount used to compute the proposed rate. The contractor did not
provide any documentation to support reducing the direct cost amount by $512,382. By
using the lower amount in the denominator, the proposed indirect cost rate was
increased by .93 percent. See Appendix D for the supported direct cost base compared
to the base used in the proposal.

PROGRAM COSTS FOR EMPLOYEES ELECTING EARLY RETIREMENT

Program costs for employees electing early retirement are an abnormal cost to the
agency and are allowable if (1) approved by the cognizant Federal agency5 and (2) are
consistent with policies, regulations, and procedures applied uniformly to both Federal
awards and other activities of the governmental unit.6 Any authorizations or approvals
obtained from SSA contain an implicit requirement that actions taken or costs incurred
comply with applicable Federal regulations.

PR DF, through PR DDP, improperly charged early retirement program costs as direct
costs because the costs were not approved by the cognizant Federal agency, and the
treatment of the costs was not consistent with other activities of the governmental unit.
While the New York Regional Office (NYRO) approved PR DF’s request to participate in
the first early retirement program, PR DF did not obtain the necessary approval from the
Department of Health and Human Services. In Federal FY 2002, PR DF charged PR
DDP $131,382 in early retirement costs as direct costs, and it charged $943,042 in
similar PR DF costs as general administrative expenses (indirect costs). For FYs 2000
through 2002, PR DF charged $407,057 directly to SSA for annuities and related costs
for employees who participated in the early retirement program. According to the
Human Resources Director, if SSA had not agreed to fund the early retirement program,


5
    OMB Circular A-87, Attachment B, Section 11.g.(3) (as amended August 29, 1997).
6
    OMB Circular A-87, Attachment A, Section C.1.e. (as amended August 29, 1997).
Page 6 – Beatrice Disman


PR DDP would not have allowed its employees to participate in the early retirement
program. See Appendix E for the early retirement costs associated with PR DDP.

On November 21, 2003, the NYRO Commissioner sent correspondence to the PR DF
stating that SSA was rescinding its financial support and authorization for the PR DDP
to participate in future early retirement programs. NYRO informed the Secretary of
PR DF that the initial authorization from SSA to participate in the first early retirement
program was not intended to be a blanket authorization to participate in any subsequent
offerings.

PROGRAM COSTS FOR UNUSED LEAVE PAYMENTS FOR EMPLOYEES WHO
TERMINATED THEIR EMPLOYMENT WITH THE PUERTO RICO DISABILITY
DETERMINATION PROGRAM

Payments for unused leave for employees who terminated their employment through
retirement or other separation are allowable “…provided they are allocated as a general
administrative expense to all activities of the governmental unit or component.”7 PR DF
improperly charged, as a direct expense, $28,842 in costs associated with the unused
leave payments for terminated employees during SFY 2002. In total, PR DF improperly
charged SSA $323,080 for costs associated with unused leave payments for these
employees from SFYs 2000 through 2003. Additionally, $50,193 had been paid during
SFY 2004 to terminated employees as of the end of our field work, resulting in a total
program cost of $373,273. See Appendix F for the payments for unused leave by SFY.

PR DDP employees who were paid for the balance of their unused leave included
employees who participated in the early retirement program, regular retirees, and
employees who resigned. Fifteen PR DDP employees participated in the early
retirement programs. Of the 15 employees, 7 received installment payments prorated
over a period equal to the number of months needed to reach normal retirement, but not
to exceed a period of 5 years, while the other 8 received lump-sum payments.8
Additionally, 12 employees received lump-sum payments as regular retirees, and
12 employees received lump-sum payments because they separated from service. All
payments for unused leave balances have been completed with the exception of
two payments totaling $13,991. These payments were pending completion of the
necessary paperwork.

During its indirect cost negotiations with the PR DF, NYRO discussed Disability
Determination Services Administrators Letter No. 615 (DDSAL 615).9 DDSAL 615 is a
reminder of the correct procedure for reporting payments for accumulated leave or
severance pay when an individual leaves the PR DDP. It also urged Disability

7
    OMB Circular A-87, Attachment B, Section 11.d (3) (as amended August 29, 1997).
8
  Under the early retirement laws, the State has the option to make these payments in installments or in a
lump sum. 1998 PR Laws 182 and 2000 PR Laws 174.
9
    DDSAL 615, effective July 31, 2002.
Page 7 – Beatrice Disman


Determination Services to examine their indirect cost agreements to ensure they are
structured to account for payment of unused leave to retired/terminated employees in
accordance with OMB Circular A-87.

In a May 15, 2003 letter to the Secretary of the PR DF, the Regional Commissioner
informed the Secretary that they were to cease improperly charging the accumulated
leave cost as a direct cost, and that all costs improperly charged to SSA would be
subject to disallowance.

CONCLUSIONS AND RECOMMENDATIONS

The administrative costs allocated to the PR DDP in the SFY 2004 Indirect Cost
Proposal were not reasonable because allocation statistics were inflated and the direct
cost base was inaccurate. Also, the PR DF improperly charged SSA directly for costs
allowable as indirect expenses. This included costs incurred for employees who elected
early retirement and payments for unused leave balances for employees who
terminated their employment with the PR DDP.

Accordingly, we recommend that SSA instruct PR DF to do the following:

1. Adjust the cost allocation statistics used for the SFY 2004 indirect cost proposal to
   better reflect the amount of effort PR DF expended on PR DDP activities. These
   adjustments should be used in negotiations with the Division of Cost Allocation to
   establish the indirect cost rate.

2. Reduce direct costs charged to SSA for early retirement costs for PR DDP
   employees who elected early retirement. These costs totaled $407,057 for
   FYs 2000 through 2003.

3. Reduce direct costs charged to SSA for unused leave payments for PR DDP
   employees who terminated their employment through retirement or other separation.
   This consisted of $323,080 identified during SFYs 2000 through 2003;
   $50,193 identified as of December 1, 2003; and any additional amounts charged
   after December 1, 2003.

AGENCY COMMENTS

SSA agreed with our recommendations. See Appendix G for the full text of SSA’s
comments.

STATE AGENCY COMMENTS
PR DF stated its general disagreement with the findings but did not directly comment on
the recommendations. However, specific comments provided by PR DF acknowledged
the problems identified and indicated at least partial implementation of the
recommendations.
Page 8 – Beatrice Disman


With respect to the cost allocation statistics, PR DF stated it disagreed with our
conclusion that costs allocated from the Payment, Contract Control, Accounting, and
Pre-audit components to the PR DDP did not reasonably reflect the level of effort
expended. PR DF also disagreed with our conclusion that 14,000 checks were issued
for other PR DF agencies. PR DF acknowledged the direct cost base used in the
SFY 2004 Indirect Cost Proposal was inaccurate and has adjusted the base
accordingly.

Concerning program costs for early retirement and unused leave payments, PR DF
partially agreed with our recommendations but stated it was not reasonable to shift all
the responsibility for the incorrect treatment of these costs to the PR DF. According to
the State response, neither the PR DF nor the New York Region was aware until
July 2002 that these charges were inappropriate. PR DF believes only costs incorrectly
charged after July 2002 should be considered improper.

See Appendix H for the full text of the State Agency’s comments.

OIG RESPONSE
PR DF’s comments regarding the Payment component did not address our finding that
batch processing of DDP checks greatly reduced the actual level of effort. We
determined 14,000 checks were issued to other PR DF agencies through examination
of the payment clerk’s check log. While disagreeing with our specific estimates for the
Contract Control and Accounting components, PR DF acknowledged its statistics were
overstated. Regarding the Pre-audit component statistic, our estimate was based not
only on our interview with the unit supervisor, but on interviews with eight other staff
members.

Without regard to when either the NYRO or the PR DF became aware that early
retirement and unused leave payment costs were being improperly charged, all
governmental units are responsible for assuring proper administration of Federal
awards.10 In this case, all early retirement and unused leave payments costs charged
directly to SSA were improper, including those charges made before July 2002.

NYRO, the Division of Cost Allocation, and the PR DF have agreed to work together to
resolve these issues.




                                                         S
                                                         Steven L. Schaeffer




10
     OMB Circular A-87, Attachment A, Section A.2.a.(3) (as amended August 29, 1997).
                                      Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – State Fiscal Year 2002 Administrative Expenses Allocated to the Puerto
             Rico Disability Determination Program

APPENDIX D – Comparison of Direct Cost Bases

APPENDIX E – Costs Charged for the Early Retirement Program

APPENDIX F – Payments for Unused Leave by State Fiscal Year

APPENDIX G – Agency Comments

APPENDIX H – State Agency Comments

APPENDIX I – OIG Contacts and Staff Acknowledgments
                                                      Appendix A
Acronyms
DI         Disability Insurance
FY         Fiscal Year
NYRO       New York Regional Office
OMB        Office of Management and Budget
PR DF      Puerto Rico Department of Family
PR DDP     Puerto Rico Disability Determination Program
SFY        State Fiscal Year
SSA        Social Security Administration
                                                                       Appendix B
Scope and Methodology
We limited our review of the Puerto Rico Department of Family’s (PR DF) indirect cost
proposal for State Fiscal Year (SFY) 2004 to issues impacting the proposed rate for the
Puerto Rico Disability Determination Program (PR DDP). The proposed rate for
SFY 2004 was based on actual costs incurred during SFY 2002 (July 1, 2001 through
June 30, 2002). We reviewed the appropriateness of the cost allocation statistics and
determined whether costs were accurately reflected in the State’s accounting records.
We did not review the step-down allocation method used by the PR DF because the
method used was recommended by the cognizant Federal agency, the Department of
Health and Human Services, Division of Cost Allocation. We did not review supporting
documentation for specific cost items that comprised the overall cost pools for the
PR DF. Accordingly, we do not address the allowability of the costs taken as a whole
for the PR DF or the rates proposed for other Federal agencies. We also limited our
review of payments for early retirement costs and for unused leave balance for
terminating employees to quantifying total amounts charged as direct costs that should
have been charged as administrative expenses.
To accomplish our objectives, we

•   reviewed Puerto Rico law provisions related to early retirement programs and
    payments for unused leave balances for terminated employees;

•   interviewed PR DF staff, PR DDP staff, and the independent consultant who
    prepared the indirect cost proposal;

•   analyzed the consultant’s supporting documentation used to develop the proposal;

•   reviewed the report on the Single Audit of the Commonwealth of Puerto Rico
    Department of Family for SFY 2001 for issues related to indirect cost findings;

•   traced selected information related to indirect costs, payments for unused leave, and
    early retirement payments to Agency records;

•   reviewed the personnel records of employees who elected early retirement to verify
    they were eligible to participate in the program; and

•   compared the PR DF payment vouchers to the PR DDP General Obligations Ledger
    to verify costs charged to the early retirement program.

We conducted our field work from August 2003 through March 2004 at the PR DF and
PR DDP in San Juan, Puerto Rico; SSA New York Regional Office, New York City; and
the Office of the Inspector General in Dallas, Texas. We conducted the audit in
accordance with generally accepted government auditing standards.
                                                                            Appendix C
State Fiscal Year 2002 Administrative Expenses
Allocated to the Puerto Rico Disability Determination
Program (PR DDP)
                               Total                                     Cumulative   Cumulative
                              Costs                       Percent of       Costs       Percent of
                            Available    Total Costs     Component's      Allocated      Costs
                                for      Allocated to   Cost Allocated      to the    Allocated to
    Cost Component          Allocation   the PR DDP     to the PR DDP     PR DDP      the PR DDP
Payment                      $495,526       $490,899             99.07     $490,899          38.30

Accounting                    395,634        189,340             47.86      680,239          53.08

Federal Reports               165,631        112,233             67.76      792,472          61.84

Pre-audit                     223,404        107,297             48.03      899,769          70.21

Contract Control              160,724        106,496             66.26    1,006,265          78.52

Collection                    101,204         51,301             50.69   1,057,566          82.52
Statewide Cost Allocation     937,303         51,265              5.47    1,108,831          86.52

Secretary                    2,483,763        46,380              1.87    1,155,211          90.14

Personnel                    2,467,066        46,373              1.88    1,201,584          93.76

Property & Supply            1,311,503        24,903              1.90    1,226,487          95.70

Budget                         379,913        20,790              5.47    1,247,277          97.32

Training                      269,091         11,641              4.33    1,258,918          98.23

Payroll                        533,689        10,306              1.93    1,269,224          99.04

Purchasing                    577,054           9,158             1.59    1,278,382          99.75

Press & Public Relations      170,366           3,183             1.87    1,281,565         100.00

Totals                                    $1,281,565

 Adjustment                                  110,576

Total Allocated to                        $1,392,141
PR DDP

The Puerto Rico Department of Family’s administrative expenses from 15 cost
components were allocated to the PR DDP. The top six allocated 82.52 percent to the
PR DDP or $1,057,566 of $1,281,565.
                                                                           Appendix D

Comparison of Direct Cost Bases
                                Comparison of Direct Cost Bases
                            (Indirect Costs / Direct Cost Base = Rate)

                             Indirect Costs Used                         Illustration of Calculated
                                in Proposal to                           Indirect Cost Rate Using
                                Compute Rate         Direct Cost Base    Different Direct Cost Base

State Fiscal Year 2004
Proposal                               $1,392,141           $8,500,188                      16.38%

Puerto Rico Department of
Family Ledger                           1,392,141            9,012,570                      15.45%

Amount Excluded from
Base and Effect on Rate                                     ($512,382)                       0.93%

Note: The direct cost base consists of total direct costs incurred during State Fiscal
Year 2002 for all grant years for the Puerto Rico Disability Determination Program
(PR DDP) less medical costs and equipment purchases incurred during State Fiscal
Year 2002 for all PR DDP grant years.
                                                                                   Appendix E

Costs Charged for the Early Retirement
Program
   RETIREMENT COSTS BY FEDERAL FISCAL YEAR (FY) FOR DISABILITY
 DETERMATION PROGRAM EMPLOYEES WHO PARTICIPATED IN THE EARLY
                     RETIRMENT PROGRAM
   APPLICABLE
   PUERTO RICO             COST
      LAW                CATAGORY           FY 2000     FY 2001     FY 2002     FY 2003     FY 2004
 1998 PR Laws 182,     Retirement           $160,676           $0         $0           $0          $0
 Article 7             Annuity
 1998 PR Laws 182,     Employer               22,663            0           0           0           0
 Article 10            Contribution
                       Employee               18,978            0           0           0           0
                       Contribution
                       Health Plan             4,080            0           0           0           0

 2000 PR Laws 174,     Retirement                   0     54,651     100,331            0           0
 Article 7             Annuity
 2000 PR Laws 174,     Employer                     0      7,231      14,460            0           0
 Article 10            Contribution
                       Employee                     0      5,956      11,911            0           0
                       Contribution
                       Health Plan                  0      1,440       2,880            0           0

                       Christmas Bonus              0           0      1,800            0           0

 Cost Per FY                                $206,397     $69,278    $131,382           $0          $0

 TOTAL                                                                                      $407,057


The Commonwealth of Puerto Rico offered two early retirement programs: Puerto Rico Law #182,
approved July 28, 1998, and Puerto Rico Law #174, approved August 12, 2000. Under the provisions of
both Laws, eligible Puerto Rico Disability Determination Program (PR DDP) employees could collect
retirement annuities up to 5 years earlier than they would have under regular retirement. The Puerto Rico
Retirement System, as administrator of the retirement plan, invoiced the Puerto Rico Department of
Family (PR DF) annually for the amount of annuities paid to and fringe benefits paid on behalf of the
PR DDP and PR DF early retirees. The fringe benefits paid consisted of the employee and employer
retirement contributions, health insurance, and annual Christmas bonus.

Based on our review of the Puerto PR DDP General Obligations Ledger and the related State Agency
Report of Obligations, Form SSA-4513, there were no early retirement costs charged to the Social
Security Administration in FYs 2003 and 2004.
                                                              Appendix F

Payments for Unused Leave by State Fiscal
Year (SFY)

        SUMMARY OF PROGRAM COSTS FOR UNUSED LEAVE PAYMENTS TO
           EMPLOYEES OF THE DISABILITY DETERMINATION PROGRAM

Retirement Program       SFY 2000   SFY 2001     SFY 2002   SFY 2003      Total

Early                     $52,234   $111,818      $15,150     $4,900   $184,102

Regular                        0       2,331       10,790    100,358    113,479

Separation/Termination          0            0      2,902     22,597     25,499

Total                     $52,234   $114,149      $28,842   $127,855   $323,080




                                       F-1
 PAYMENTS FOR UNUSED LEAVE - EARLY RETIREES, SFYs 2000 Through 2003

Employee          Total     Prorated or   SFY 2000       SFY 2001       SFY 2002       SFY 2003
   #          Accumulated   Lump Sum
               Leave Cost

    1              $6,220      Prorated       $2,262        $2,262         $1,696            $0

    2              27,275      Prorated       15,586        11,689                 0          0

    3              17,918      Prorated        8,959         8,959                 0          0

    4              24,502      Prorated        6,534         6,534          6,534          4,900

    5              13,924      Prorated        5,063         5,063          3,798             0

    6              11,446      Prorated        4,162         4,162          3,122             0

    7               6,290      Prorated        6,290                0              0          0

    8               1,557    Lump Sum          1,557                0              0          0

    9               1,821    Lump Sum          1,821                0              0          0

   10              11,520    Lump Sum                0      11,520                 0          0

   11              14,873    Lump Sum                0      14,873                 0          0

   12               3,125    Lump Sum                0       3,125                 0          0

   13               9,442    Lump Sum                0       9,442                 0          0

   14              17,929    Lump Sum                0      17,929                 0          0

   15              16,260    Lump Sum                0      16,260                 0          0

  Total          $184,102                    $52,234      $111,818        $15,150         $4,900

Grand Total                                                                             $184,102




                                            F-2
               PAYMENTS FOR UNUSED LEAVE - REGULAR RETIREES,
                            State Fiscal Years 2001 Through 2004

Employee          Total      Prorated or   SFY 2001       SFY 2002        SFY 2003    SFY 2004
   #          Accumulated    Lump Sum
               Leave Cost

    1              $2,331     Lump Sum        $2,331                 $0         $0          $0

    2              10,790     Lump Sum                0       10,790             0           0

    3              28,409     Lump Sum                0              0       28,409          0

    4                 498     Lump Sum                0              0         498           0

    5               8,079     Lump Sum                0              0        8,079          0

    6              18,961     Lump Sum                0              0       18,961          0

    7               9,665     Lump Sum                0              0        9,665          0

    8              34,746     Lump Sum                0              0       34,746          0

    9               2,857     Lump Sum                0              0           0        2,857

   10              18,338     Lump Sum                0              0           0       18,338

   11              25,528     Lump Sum                0              0           0       25,528

   12               3,470     Lump Sum                0              0           0        3,470

  Total          $163,672                     $2,331         $10,790       $100,358     $50,193

Grand Total                                                                            $163,672




                                             F-3
   PAYMENTS FOR UNUSED LEAVE - SEPARATING/RESIGNING EMPLOYEES
                                     SFYs 2001 - 2004
Employee #    Total Costs   Prorated or   SFY 2001      SFY 2002       SFY 2003       SFY 2004
              for Unused    Lump Sum
                 Leave

          1          $98     Lump Sum              $0         $98             $0             $0

          2          137     Lump Sum               0         137                 0              0

          3            90    Lump Sum               0          90                 0              0

          4          274     Lump Sum               0         274                 0              0

          5          640     Lump Sum               0         640                 0              0

          6          254     Lump Sum               0         254                 0              0

          7          650     Lump Sum               0         650                 0              0

          8         3,963      Pending             0               0              0              0

          9          759     Lump Sum               0         759                 0              0

         10        19,475    Lump Sum              0               0     $19,475                 0

         11          793     Lump Sum               0              0         793                 0

         12          940     Lump Sum               0              0         940                 0

         13        10,028      Pending             0               0              0              0

         14         1,389    Lump Sum              0               0       1,389                 0

      Total       $39,490                          $0      $2,902        $22,597             $0

Grand Total                                                                             $25,499


Note: Pending payments totaling $13,991 have not been made. Puerto Rico
Department of Family personnel stated they were waiting on documents to be submitted
for payment to be made.

Total costs of unused leave: $25,499 paid + $13,991 pending = $39,490




                                             F-4
                  Appendix G

Agency Comments
                                   SOCIAL SECURITY

MEMORANDUM                                                                   Refer To: S2D2G5

Date:         August 12, 2004

To:           Steven L. Schaeffer
              Assistant Inspector General
              for Audit

From:         Regional Commissioner
              New York

Subject:      Puerto Rico Disability Determination Program Indirect Cost Review (A-06-04-34035) -
              (Your Memorandum Dated June 25, 2004)


As a result of the discussions held between New York (NY) Regional Office (RO) staff and Office
of Inspector General (OIG) staff, as well as between NYRO staff and Division of Cost Allocation
(DCA) staff subsequent to my August 6th memorandum on this subject, we are supplementing our
initial response.

The 3 recommendations for SSA included in your draft audit of this review are:

      •   SSA should instruct the Puerto Rico (PR) Department of the Family (DoF) to adjust the cost
          allocation statistics used for the State Fiscal Year (SFY) 2004 indirect cost proposal to better
          reflect the amount of effort PR DoF expended on PR Disability Determination Program
          (DDP) activities. These adjustments should be used in negotiations with the Division of Cost
          Allocation (DCA) to establish the indirect rate.
      •   SSA should instruct the PR DoF to reduce direct costs charged to SSA for early retirement
          costs for PR DDP employees who elected early retirement. These costs totaled $407,057 for
          FYs 2000 through 2003.
      •   SSA should instruct the PR DoF to reduce direct costs charged for unused leave payments for
          PR DDP employees who terminated their employment through retirement or other
          separation. This consisted of $323,080 identified during SFYs 2000 through 2003; $50,193
          identified as of December 1, 2003; and any additional amounts charged after December 1,
          2003.

As previously stated, we agree with the first recommendation. In addition to requesting the PR DoF
to adjust the cost allocation statistics used for the SFY 2004 indirect cost proposal, we have been and
will continue to be in contact with Division of Cost Allocation staff on this issue.


                                                    G-1
As previously stated, we also agree with recommendations 2 and 3. The payments made to retirees
who opted to take “early out” retirements as well as the payments for unused vacation leave made
upon separation of DDP staff were proper and allowable, provided they were paid from DoF funds
and reimbursed by SSA through the indirect cost mechanism. On November 21, 2003, we sent
correspondence to the PR DoF rescinding SSA financial support and authorization for the PR DDP
to participate in future early retirement programs. We also notified the Secretary of the PR DoF that
unused vacation leave costs could no longer be charged directly to SSA.

As for the prior year charges, it may be better to correct the deficiencies on a prospective basis rather
than attempt to retroactively correct or shift costs from direct to indirect. The New York Regional
Office is working with both the Division of Cost Allocation and the PR DoF to resolve this issue.

If members of your staff have any further questions on this matter they should be directed to Gene
Purk, (212) 264-7283 in the Center for Disability Programs.


                                                  / s /


                                              Beatrice M. Disman




                                                  G-2
                                                                 Appendix H

State Agency Comments
[The names of some individuals have been redacted from the attached comments.]
H-1
H-2
H-3
H-4
                                                                       Appendix I
OIG Contacts and Staff Acknowledgments
OIG Contacts

   Paul Davila, Director, (214) 767-6317

   Ron Gunia, Audit Manager, (214) 767-6620

Acknowledgments

In addition to those named above:

   Warren Wasson, Auditor-in-Charge

   Clara Soto, Auditor

   Brennan Kraje, Statistician

   Kim Beauchamp, Writer-Editor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-06-04-34035.
                          DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                               Office of Executive Operations
OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
